TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The 2009 Filing Season Was Successful
                Despite Significant Challenges Presented by
                   the Passage of New Tax Legislation



                                     September 21, 2009

                           Reference Number: 2009-40-142




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The 2009 Filing Season Was Successful Despite
                                 Significant Challenges Presented by the Passage of New Tax
                                 Legislation (Audit #200940013)

 This report presents the results of our review of the 2009 Filing Season. The overall objective of
 this review was to evaluate whether the Internal Revenue Service (IRS) timely and accurately
 processed individual paper and electronically filed (e-filed) tax returns during the 2009 Filing
 Season. 1 This review was part of the Treasury Inspector General for Tax Administration Fiscal
 Year 2009 Annual Audit Plan and relates to the Major Management Challenge of processing
 returns and implementing tax law changes.

 Impact on the Taxpayer
 Each year, legislated tax law changes create challenges for both the IRS and individual
 taxpayers. Moreover, the 2009 Filing Season presented additional challenges due to the passage
 of three significant tax laws in Calendar Years 2008 and 2009 after the filing season had started.
 Overall, the IRS implemented these changes correctly with no significant delays in the
 processing of tax returns during the 2009 Filing Season. Through May 29, 2009, the IRS had
 received more than 133.6 million individual tax returns. Of those, approximately 91.7 million
 were e-filed and approximately 41.9 million were filed on paper.

 Synopsis
 The IRS had a successful 2009 Filing Season despite the challenges presented by the enactment
 of new tax legislation and unusually high number of taxpayer errors resulting from confusion in

 1
     See Appendix V for a glossary of terms.
                   The 2009 Filing Season Was Successful Despite Significant
                   Challenges Presented by the Passage of New Tax Legislation



calculating the Recovery Rebate Credit. While we had some concerns that are discussed in this
report, the IRS correctly implemented key tax law and administrative changes with no significant
delays. Processing of tax returns was completed on schedule and refunds were issued within the
required 45 calendar days of the April 15, 2009, due date.2
Total receipts for e-filed tax returns hit a record this year of Individual tax returns were
approximately 91.7 million tax returns (69 percent of total         timely and accurately
tax returns filed) and exceeded IRS estimates. The increase      processed during the 2009
resulted from taxpayers filing online from home computers               Filing Season.
(19.2 percent). However, use of the Free File Program
decreased by 36.7 percent.
Total paper-filed tax returns as of May 29, 2009, were nearly 41.9 million, which was a
27.1 percent decrease from the same time last year. As of May 29, 2009, the IRS issued
approximately 104 million refunds totaling $279.3 billion. Of the 104 million refunds issued,
refunds that were direct deposited increased by 9.5 percent to almost 71 million.
In addition, although the IRS initiated a number of efforts to educate and assist individuals who
were confused in computing the Recovery Rebate Credit, the credit resulted in a significant
number of taxpayer errors. Of the 114.3 million tax returns processed as of April 17, 2009,
16.7 million (14.6 percent) included at least 1 error that needed to be addressed by the IRS Error
Resolution function (8.4 million contained a Recovery Rebate Credit error). This exceeded the
total number of tax returns the IRS estimated would go to the Error Resolution function by
9.8 million tax returns (142 percent). The Error Resolution function initiated a number of steps
to ensure there were no delays in correcting the errors that would impact on the IRS’ ability to
                                        meet its completion date for processing and issuing tax
                                        refunds.
     As of May 29, 2009, we identified
                                     Further, the IRS faced challenges in administering the
          over 70,000 First-Time     First-Time Homebuyer Credit (FTHC). We identified
     Homebuyer Credits totaling over
      $489 million that were claimed
                                     more than 1.1 million tax returns on which taxpayers were
        by individuals who do not    allowed more than $7.8 billion in FTHCs. Of those,
                                     958,058 (85 percent) were e-filed and 171,422 (15 percent)
      appear to qualify for the credit.
                                     were filed via paper. IRS management disagreed with our
                                     recommendation that would have required taxpayers to
provide third-party documentation supporting the purchase of a home. IRS management
concluded that such a requirement would be burdensome and would prevent up to 2 million
taxpayers from e-filing.




2
    Internal Revenue Code Section 6611(e) (2002).
                                                                                                 2
                The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation



The American Recovery and Reinvestment Act of 2009 3 modified the FTHC by changing some
of the eligibility criteria and increasing the maximum amount of the credit to $8,000 from
$7,500. It also eliminated the repayment obligation included in the Housing and Economic
Recovery Act of 2008 4 for homes purchased in Calendar Year 2009 unless the purchased home
is no longer the main home within the first 36 months of the purchase.
The IRS established the Special Processing Code “H” to assist computer programs in
distinguishing FTHC claims for homes purchased in Calendar Year 2009, from homes purchased
in Calendar Year 2008 because of the different rules regarding the repayment of the credit. This
code should be recorded only when FTHC claims show the home is purchased in Calendar
Year 2009. In limited testing of returns with the FTHC, we found that the code was not always
recorded accurately. We reviewed the purchase dates shown on the 47,276 e-filed returns and
found that 93 percent (43,967) did not have their IRS accounts properly coded. Since these
taxpayers purchased their homes in Calendar Year 2009, they should not be required to repay the
FTHC but may eventually be incorrectly identified as liable for repayment of the credit.
Accuracy of processing is essential to future IRS efforts to collect the FTHC as required by the
Housing and Economic Recovery Act of 2008. Taxpayers may be burdened by inaccurate
notices and improper collection attempts if the IRS cannot accurately identify which credits must
be repaid.
Finally, we determined the IRS has corrected and/or is in the process of addressing issues we
previously reported as part of our 2008 Filing Season Review. 5 These include ensuring
individuals are not improperly claiming the Qualified Mortgage Insurance Premiums Deduction
and claiming dual benefits of the Tuition and Fees Deduction and Education Credit.

Recommendation
We recommended the Commissioner, Wage and Investment Division, ensure Special Processing
Code “H” is accurately used on taxpayer accounts by identifying previously processed tax
returns that were not coded accurately and ensuring subsequently processed tax returns are
properly coded. This could be accomplished by identifying tax returns claiming the FTHC and
the amount of the claim and analyzing the accounts to determine if they were properly coded.




3
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
4
  Pub. L. No. 110-289, 122 Stat. 2654 (2008).
5
  The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and Unexpected Tax Legislation
(Reference Number 2008-40-183, dated September 30, 2008).
                                                                                                              3
              The 2009 Filing Season Was Successful Despite Significant
              Challenges Presented by the Passage of New Tax Legislation




Response
IRS management disagreed with this recommendation. The IRS stated that it has gone to
considerable lengths to mark accounts with the year of purchase and the dollar value of the credit
issued and intends to track this information on the Master File for taxpayers who are required to
pay back the credit. As the IRS determines what compliance activities will be conducted, it will
validate the information it has to ensure only those taxpayers who have not met their
responsibilities are contacted. This will include ensuring the date of purchase was accurately
captured. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
Although management indicated in their response that they went through considerable lengths to
mark accounts with the year of purchase that will be used in determining if recapture is required,
our review of 47,276 e-filed returns found that 93 percent (43,967) did not have their accounts
properly coded. We recently initiated an audit that will evaluate the effectiveness of IRS efforts
to distinguish between filers claiming the credit for a purchase in Calendar Year 2008 versus
those claiming the credit for a purchase in Calendar Year 2009.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                 4
                        The 2009 Filing Season Was Successful Despite Significant
                       Challenges Presented by the Passage of New Tax Legislation




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Individual Tax Returns Were Timely and Accurately Processed
          During the 2009 Filing Season .....................................................................Page 3
          Electronic Filing Continues to Increase, but Use of
          Free File Is Down..........................................................................................Page 5
          The Internal Revenue Service Timely Processed Tax Returns;
          However, Taxpayer Confusion in Calculating the Recovery
          Rebate Credit Resulted in Significant Increases in Error Tax Returns.........Page 7
          The Internal Revenue Service Faced Challenges in Administering
          the First-Time Homebuyer Credit.................................................................Page 8
                    Recommendation 1:........................................................Page 12

          Taxpayers Make Limited Use of the Split Refund Option ...........................Page 13
          The Internal Revenue Service Corrected or Is in the Process of
          Correcting Issues Identified in Prior Filing Season Reviews .......................Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Tax Products Not Timely Available/Updated......................Page 20
          Appendix V – Glossary of Terms .................................................................Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 25
                 The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation




                               Abbreviations

AGI                     Adjusted Gross Income
ARRA                    American Recovery and Reinvestment Act of 2009
e-file(d); e-filing     Electronically file(d); electronic filing
FTHC                    First-Time Homebuyer Credit
IRS                     Internal Revenue Service
TIGTA                   Treasury Inspector General for Tax Administration
                      The 2009 Filing Season Was Successful Despite Significant
                     Challenges Presented by the Passage of New Tax Legislation




                                               Background

The filing season 1 is critical for the Internal Revenue Service (IRS) because it is the time when
most individuals file their income tax returns and contact the IRS if they have questions about
specific tax laws or filing procedures. The IRS had received more than 133.6 million individual
tax returns as of May 29, 2009. Generally, Congress makes changes to the tax law each year.
Changes to the tax law have a major impact on how the
IRS conducts its activities, how many resources are                The IRS received more than
required, and how quickly the IRS can meet strategic              133.6 million tax returns as of
goals. Before the filing season begins, the IRS must                      May 29, 2009.
identify the tax law changes and administrative changes;
revise the various tax forms, instructions, and
publications; and reprogram its computer system to ensure tax returns are accurately processed.
Tax return processing problems could delay refunds, affect accuracy of accounts, and result in
the generating of incorrect notices.
Along with the usual required updates, 2 the passage of three significant tax laws in Calendar
Years 2008 and 2009, after the filing season had started, presented challenges for the IRS.
    •    The Housing and Economic Recovery Act of 2008 3 included a refundable
         First-Time Homebuyer Credit (FTHC) and an additional standard deduction for real
         property taxes. Congress allocated $13.6 billion for the FTHC to encourage an estimated
         2 million first-time homebuyers into the declining housing market. This credit is similar
         to an interest-free loan that must be repaid over a 15-year period. It allows a taxpayer
         who is a first-time homebuyer 4 a refundable tax credit equal to the lesser of $7,500
         ($3,750 for Married Filing Separately) or 10 percent of the purchase price of a principal
         residence.
    •    The Emergency Economic Stabilization Act of 2008 5 included changes to extend certain
         expiring provisions and included relief from the Alternative Minimum Tax. Signed on
         October 3, 2008, the Act also provided incentives for energy production and conservation
         and provided relief for certain taxpayers affected by natural disasters.


1
  See Appendix V for a glossary of terms.
2
  Each year, the tax products must be updated to reflect current tax rates, exemption amounts, and cost of living
adjustments as shown in Revenue Procedures.
3
  Pub. L. No. 110-289, 122 Stat. 2654 (2008).
4
  Defined within the Housing and Economic Recovery Act of 2008 as taxpayers who bought a main home in the
United States after April 8, 2008, and did not own any other main home during the prior 3 years.
5
  Pub. L. No. 110-343, 122 Stat. 3766 (2008).
                                                                                                             Page 1
                     The 2009 Filing Season Was Successful Despite Significant
                    Challenges Presented by the Passage of New Tax Legislation



    •   The American Recovery and Reinvestment Act of 2009 (ARRA) 6 increased the
        maximum amount and modified the qualifications of the FTHC enacted 7 months earlier.
        The ARRA also eliminated the repayment obligation in the Housing and Economic
        Recovery Act of 2008 for homes purchased in Calendar Year 2009 unless the purchased
        home is no longer the main home within the first 36 months after the purchase.
In addition, much like the 2008 Filing Season, the IRS was responsible for processing tax returns
that included the Recovery Rebate Credit. Last filing season, the Economic Stimulus Act of
2008 7 provided economic stimulus payments to millions of taxpayers. During the 2009 Filing
Season, the Recovery Rebate Credit was available to eligible taxpayers who did not receive an
economic stimulus payment or who were entitled to an additional payment based on information
on their Tax Year 2008 individual income tax returns.
During the 2009 Filing Season, the IRS processed individual income tax returns in five Wage
and Investment Division Submission Processing sites located throughout the country. 8 All of the
                                        five sites processed paper individual income tax returns,
    The IRS processed individual        and all but the Atlanta, Georgia, Submission Processing
   income tax returns in five Wage      Site processed electronically filed (e-filed) individual
       and Investment Division          income tax returns. Both paper and e-filed tax returns and
    Submission Processing sites.        related schedules are processed through the IRS computer
                                        systems and recorded on each individual’s tax account at
                                        the Submission Processing sites. The IRS computer
systems are made up of a complex series of processing subsystems that are linked and
programmed nationally to check the validity and mathematical accuracy of the tax return data
provided. If an error is found, the taxpayer is sent a notice that requests additional information
or explains any change that is made to the amount of tax due or to the refund.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio, and the Austin Submission Processing Site in Austin, Texas, during the period
November 2008 through June 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.


6
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
7
  Pub. L. No. 110-185. 122 Stat. 613.
8
  Submission Processing Sites in Fresno, California; Atlanta, Georgia; Andover, Massachusetts;
Kansas City, Missouri; and Austin, Texas.
                                                                                                 Page 2
                       The 2009 Filing Season Was Successful Despite Significant
                      Challenges Presented by the Passage of New Tax Legislation




                                       Results of Review

Individual Tax Returns Were Timely and Accurately Processed During
the 2009 Filing Season
The IRS had a successful 2009 Filing Season despite the challenges presented by the enactment
of new tax legislation and unusually high taxpayer errors resulting from confusion in calculating
the Recovery Rebate Credit. While we had some concerns that are discussed in this report, the
IRS correctly implemented key tax law and administrative
changes with no significant delays. Processing of tax
returns was completed on schedule and refunds were issued         E-filed returns hit a record
within the required 45 calendar days of the April 15, 2009,             high this year of
          9                                                       approximately 91.7 million
due date.                                                         returns as of May 29, 2009.
Total tax return receipts for e-filed tax returns hit a record
this year of approximately 91.7 million tax returns
(69 percent of total tax returns filed) and exceeded IRS estimates. The increase resulted from
taxpayers filing online from home computers (19.2 percent). However, use of the Free File
Program decreased by 36.7 percent.
Total paper-filed tax returns as of May 29, 2009, were nearly 41.9 million which was a
27.1 percent decrease from the same time last year. As of May 29, 2009, the IRS issued
approximately 104 million refunds totaling $279.3 billion. Of the 104 million refunds issued,
refunds that were direct deposited increased by 9.5 percent to almost 71 million. Figure 1
presents a summary of tax return filing statistics.




9
    Internal Revenue Code Section 6611(e) (2002).
                                                                                           Page 3
                         The 2009 Filing Season Was Successful Despite Significant
                        Challenges Presented by the Passage of New Tax Legislation



                            Figure 1: Comparative Filing Season Statistics
                                                                    2008 Actual         2009 Actual        Percentage
 Cumulative Filing Season Data
                                                                    As of May 31        As of May 29        Change
 Individual Income Tax Returns
 Total Returns Received (in thousands)                                   144,150             133,635              -7.3%
        Paper Returns Received (in thousands)                             57,476              41,892            -27.1%
        Electronic Returns Received (in thousands)                        86,674              91,743              5.8%
          Practitioner Prepared                                           60,231              60,221              0.0%
          Home Computer                                                   26,444              31,522             19.2%
          Free File (also included in Home
                                                                            4,652              2,944            -36.7%
          Computer total)
          Fillable Tax Forms (also included in Home
                                                                              N/A                 264                   NA
          Computer total)
 Refunds
  Total Number Issued (in thousands)                                     100,094             104,458              4.4%
  Total Dollars (in millions)                                           $234,923           $279,280              18.9%
  Average Dollars                                                         $2,347              $2,674             13.9%
  Total Number of Direct Deposits (in thousands)                          64,767              70,907              9.5%
  Total Direct Deposit Dollars (in millions)                            $173,684           $209,163              20.4%
Source: IRS 2009 Filing Season Weekly Reports. Totals may not compute to those presented due to rounding.

 The IRS implemented key tax law and administrative changes for the 2009 Filing
 Season
 Each year, the IRS must update a considerable number of tax forms and publications to provide
 the most current tax guidance to the public. We selected and reviewed 42 tax products to
 determine whether the tax products associated with recent legislation had been updated and made
 available to the public timely. Overall, the IRS correctly updated the 42 tax products related to
 tax relief for taxpayers in the Midwestern disaster area, tax provisions that became effective in
 Tax Year 2008, and various inflation adjustments. However, five publications and one form
 were not available to the public for the start of the 2009 Filing Season and one other publication
 did not contain updated information. After we notified the IRS on January 23 and
 February 12, 2009, it made the tax products available and/or corrected the incomplete or missing
 information. 10 The IRS advised us that products were not available because they were being
 updated to reflect recent legislation or being held because of pending legislation. The IRS


 10
      See Appendix IV for a listing of the tax products that were not timely available or had incomplete information.
                                                                                                                Page 4
                   The 2009 Filing Season Was Successful Despite Significant
                  Challenges Presented by the Passage of New Tax Legislation



released the form and publications as soon as they were accurately completed and quickly
revised the publication with the updated information.
In addition, the IRS properly implemented tax law and administrative changes including the
following provisions:
   •   Providing for an additional standard deduction for State and local real property taxes.
       This allows taxpayers who did not itemize but paid certain State or local real estate taxes
       to increase their standard deduction up to $500 if filing as a single taxpayer or by $1,000
       if married and filing jointly. In addition, if a taxpayer had a net disaster loss attributable
       to a Federally declared disaster, this loss could be used to increase the taxpayer’s
       standard deduction.
   •   Decreasing earned income tax thresholds for claiming the Additional Child Tax Credit
       from $10,000 to $8,500 so the Credit would be available to more taxpayers.
   •   Providing for an additional exemption amount of $500 (up to $2,000) for housing
       individuals displaced as a result of a natural disaster.
   •   Increasing:
       o Phase-out limitations for the Education Credit and the Student Loan Interest
         Deduction.
       o The maximum Hope Credit.
       o Modified Adjusted Gross Income (AGI) limits for the Retirement Savings
         Contribution Credit.
       o Earned Income Tax Credit, standard deduction, and exemption amounts.

Electronic Filing Continues to Increase, but Use of Free File Is Down
The IRS has continued to see a steady growth in the e-filing of tax returns over the past several
years. The IRS began receiving e-filed tax returns January 16, 2009. As of May 29, 2009,
e-filing overall had increased by 5.8 percent compared to the same period in 2008. The increase
came from taxpayers filing online from home computers (a 19.2 percent increase). The
percentage of e-filed returns has increased to 69 percent of the total individual income tax returns
received.
However, the use of Free File decreased by 36.7 percent from almost 4.7 million returns in the
2008 Filing Season to less than 3 million tax returns using this option during the 2009 Filing
Season. The Free File Program offers 20 different software options that can assist taxpayers with
an AGI of $56,000 or less in 2008 to e-file their Federal tax returns for free. That means
70 percent of all taxpayers (i.e., 98 million) can take advantage of tax software that will help


                                                                                               Page 5
                     The 2009 Filing Season Was Successful Despite Significant
                    Challenges Presented by the Passage of New Tax Legislation



them complete their returns through the Free File Program. Three companies are offering their
products in Spanish.
A new option, Free File Fillable Tax Forms, was provided this year opening up the Free File
Program to nearly everyone, even those with incomes exceeding $56,000. These Fillable Tax
Forms allow taxpayers to fill out and e-file their tax forms with the IRS at no cost. These forms
are only available through the Free File Program link on IRS.gov (the public IRS Internet web
                                           site); however, some taxpayers may not have benefited
                                           from this option because they were unaware of the
         The Free File Program was         Fillable Tax Forms availability. This option does not
  expanded to provide most individual      include the step-by-step question and probe process,
      filers with free e-file; however,    but it does allow taxpayers to enter their tax data,
   taxpayers are not taking advantage      perform basic math calculations, sign their tax returns
            of this filing option.
                                           electronically, print their returns for recordkeeping,
                                           and e-file their returns. This option may be right for
                                           those who are familiar with the tax law, know what
forms they want to use, and do not need assistance.
Despite the availability of the Free File Program to nearly all individual filers, taxpayers are not
taking advantage of the Free File Program. IRS officials believe there are a number of reasons
for the decreased volumes, such as a later start to the filing season this year, the migration of
taxpayers to other free offers in the marketplace, and the elimination of e-filing fees by some
software providers. We reviewed the 2009 filing patterns for more than 5.4 million taxpayers
who used the Free File Program during 2008 and found that only 26 percent continued to use
Free File in the 2009 Filing Season. Less than 5 percent of the taxpayers who stopped using the
Free File Program filed paper returns. The most preferred method (39 percent) was e-filing via a
personal computer. Figure 2 shows how the taxpayers who used Free File in 2008 filed in 2009.
        Figure 2: Filings in 2009 by Taxpayers Who Used Free File in 2008
How Return Was Filed in Calendar Year 2009              Percentage of Taxpayers Who Used This Option
Personal Computer Software                                                       38.93%
Free-File - not Fillable Tax Forms                                               25.18%
No Return Found                                                                  21.86%
E-File - not Free File                                                            8.81%
Paper Return - Self Prepared                                                      3.90%
Paper Filing by Paid Preparer                                                     0.74%
Free-File - Fillable Tax Forms                                                    0.53%
IRS Program                                                                       0.05%
Source: Treasury Inspector General for Tax Administration (TIGTA) electronic analysis of tax return filings by
taxpayers who used the 2008 Free File Program.

                                                                                                          Page 6
                      The 2009 Filing Season Was Successful Despite Significant
                     Challenges Presented by the Passage of New Tax Legislation



The Internal Revenue Service Timely Processed Tax Returns;
However, Taxpayer Confusion in Calculating the Recovery Rebate
Credit Resulted in Significant Increases in Error Tax Returns
The IRS timely processed tax returns despite an unusually large number of taxpayer errors. The
IRS had to develop processes to calculate and provide the Recovery Rebate Credit. However,
unlike the issuance of the economic stimulus payments last year, the potential for errors was
much greater because the calculation of the Recovery Rebate Credit was based upon several
factors, including the taxpayer’s filing status, income, and tax liability. In contrast to the
economic stimulus payment, the taxpayer, and not the IRS, had to calculate and claim the Credit.
Although the IRS initiated a number of efforts to educate and assist individuals who were
confused in computing the Recovery Rebate Credit, the Credit resulted in a significant number of
taxpayer errors. Of the 114.3 million tax returns processed as of April 17, 2009, 16.7 million
(14.6 percent) included at least 1 error that needed to be addressed by the IRS Error Resolution
function (8.4 million contained a Recovery Rebate Credit error). This exceeded the total number
of tax returns the IRS estimated would go to the Error Resolution function by 9.8 million tax
returns (142 percent). The IRS assumed taxpayers would understand that they generally were
not eligible for the Credit if they had already received an economic stimulus payment. However,
taxpayers did not understand that the economic stimulus payment and the Recovery Rebate
Credit were one and the same or they did not know how to correctly compute and claim the
credit.
In addition, as of April 17, 2009, the IRS rejected almost 1.3 million e-file tax returns because of
an error relating to the Recovery Rebate Credit. 11 This represents 7.7 percent of total e-file
rejects. The most common reason tax returns with recovery rebate claims were rejected was
because the taxpayer already received the maximum stimulus payment and tried to claim the
Credit.
However, the Error Resolution function initiated a number of steps to ensure there were no
delays in correcting the errors that would impact on the IRS’ ability to meet its completion date
for processing and issuing tax refunds. The IRS took the following actions to manage the
increased inventory in the Error Resolution function:
     •   Added more Error Resolution function personnel to work cases.
     •   Developed and implemented a new analysis tool to assist in the resolution of error cases.
         One module in the new Integrated Data Retrieval System Decision Assisting Program 12
         computer application automates research and resolution of simple errors related to the

11
  The number of rejects will be higher than the number of returns rejected since a return can reject more than once.
12
  The Integrated Data Retrieval System is an IRS computer subsystem capable of retrieving or updating stored
information for a taxpayer’s account records.
                                                                                                             Page 7
                     The 2009 Filing Season Was Successful Despite Significant
                    Challenges Presented by the Passage of New Tax Legislation



        amount of the Recovery Rebate Credit caused by inaccurate reporting of stimulus
        payments. The tool automated the research of taxpayer accounts to identify actions that
        needed to be taken to correct errors. The tool assisted in the resolution of more than
        3 million returns, at a rate of up to 200 cases an hour, without employees having to
        manually handle the returns in the Error Resolution System.
We initiated a separate review to evaluate the effectiveness of IRS efforts to plan and implement
the Recovery Rebate Credit.13 As such, we are not including specific recommendations in this
audit report.

The Internal Revenue Service Faced Challenges in Administering the
First-Time Homebuyer Credit
We identified more than 1.1 million tax returns on which taxpayers were allowed more than
$7.8 billion in FTHCs. Of those, 958,058 (85 percent) were e-filed and 171,422 (15 percent)
were paper returns.
On November 25, 2008, we issued a memorandum to the Commissioner, Wage and Investment
Division, outlining our concerns that controls would not be adequate to prevent an individual
                                       from erroneously or fraudulently claiming the credit and
                                       receiving the maximum $7,500 credit. IRS management
  As of May 29, 2009, we identified    disagreed with our recommendation that would have
  more than 70,000 FTHCs totaling
  more than $489 million that were     required taxpayers to provide third-party documentation
   claimed by individuals who do       supporting the purchase of a home. IRS management
     not appear to qualify for the     concluded that such a requirement would be burdensome
                 credit.               and would prevent up to 2 million taxpayers from filing
                                       electronically. Management further stated that the IRS
                                       would audit tax returns when a FTHC claim is identified
by criteria in the Questionable Refund Program. The IRS is also considering a discretionary
audit program to review returns when taxpayers appear to be disqualified from the credit by
owning a house within the past 3 years.
Because of the significant amount of dollars associated with the FTHC, we initiated a separate
review to assess the effectiveness of IRS efforts to identify potentially erroneous/fraudulent
claims for the FTHC. 14




13
   Evaluation of the Planning, Computation, and Issuance of the Recovery Rebate Credit (Reference
Number 2009-40-129, dated September 9, 2009).
14
   The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Audit Number 200940138, Draft Report Issued August 31, 2009).
                                                                                                           Page 8
                  The 2009 Filing Season Was Successful Despite Significant
                 Challenges Presented by the Passage of New Tax Legislation



The IRS developed processes to identify FTHC claims that did not meet certain
requirements
In an attempt to ensure the accuracy of FTHC claims, the IRS:
   •   Created the new First-Time Homebuyer Credit (Form 5405) for eligible taxpayers to
       calculate and claim the credit as well as provide the address and purchase date of the
       qualifying home.
   •   Developed programming that selects paper tax returns for correction or rejects e-filed tax
       returns when certain conditions exist. These include:
       o FTHC claims exceeding the maximum allowable credit amount, errors in computing
         the phase-out of the credit when modified AGI is between $75,000 and $95,000 for
         Single or Married Filing Separately ($150,000 and $170,000 for Married Filing
         Jointly) filing statuses.
       o FTHC claims when the Form 5405 is not included with the tax return.
We found that the programming was correctly identifying the above conditions for correction.
Specifically, as of May 29, 2009, the IRS had rejected more than 28,000 e-filed returns with
these conditions. Figure 3 provides a breakdown of the error conditions.




                                                                                           Page 9
                      The 2009 Filing Season Was Successful Despite Significant
                     Challenges Presented by the Passage of New Tax Legislation



         Figure 3: First-Time Homebuyer Credit E-File Error Conditions and
         Associated Volumes from January 16, 2009, through May 29, 2009

 E-File Error
   Reject                                                                                     Number of
                                                 Error Situation
    Code                                                                                       Errors
      355        The FTHC amount claimed on U.S. Individual Income Tax Return                    558
                 (Form 1040) does not match the amount on Form 5405 or Form 5405 is
                 not attached.
      356        The FTHC exceeds $3,750 when Married Filing Separate and $7,500 for          18,050
                 all other filing statuses when the date acquired on Form 5405 is between
                 April 8, 2008, and January 1, 2009. Or the FTHC is claimed on Form 1040
                 and the AGI exceeds $169,999 when filing status is Married Filing Joint
                 and $94,999 for all other filing statuses.
      357        Both Form 5405 and District of Columbia First-Time Homebuyer Credit             220
                 (Form 8859) are present.
      365        The Form 5405 is present and the Date Acquired is blank or the date is not    9,628
                 between April 8, 2008, and December 1, 2009. Also, the Date Acquired
                 cannot be greater than the current processing date (return received date).
      371        The amount of FTHC cannot exceed $4,000 when Married Filing Separate              8
                 and $8,000 for all other filing statuses when the year of Date Acquired on
                 Form 5405 is 2009. The FTHC is claimed then the AGI cannot exceed
                 $169,999 when Married Filing Joint and $94,999 for all other filing
                 statuses.
                                                                                    TOTAL     28,464
Source: IRS Tax Year 2008 Publication 1346 and internal IRS E-file reports.

 The ARRA required modifications to IRS programming and forms resulting in
 delays in processing some tax returns
 The ARRA modified the FTHC by changing some of the eligibility criteria and increasing the
 maximum amount of the credit to $8,000. In addition, taxpayers who purchase a home in
 Calendar Year 2009 generally are not required to repay the credit. These modifications required
 the IRS to suspend the processing of tax returns for those filers claiming the FTHC for a
 Calendar Year 2009 purchase. The IRS had to update programming to distinguish between 2008
 and 2009 purchase dates. For example:
     •   The IRS established the Special Processing Code “H” to assist computer programs in
         identifying whether the FTHC was for a 2008 purchase that taxpayers must repay or for a
         2009 purchase that does not require repayment. This code is input on FTHC claims for
         homes purchased in 2009 and ensures the computer will accept up to an $8,000 credit
         amount.

                                                                                                Page 10
                     The 2009 Filing Season Was Successful Despite Significant
                    Challenges Presented by the Passage of New Tax Legislation



     •   Through March 30, 2009, e-file programming rejected all tax returns with FTHC claims
         in excess of $7,500. Implementation of the Special Processing Code allowed computer
         programs to accept e-filed returns with FTHC amounts up to $8,000 if the purchase date
         was in Calendar Year 2009. As of June 5, 2009, the IRS had processed 101,943 e-filed
         returns with the new Special Processing Code.
     •   During the period March 5 to March 19, 2009, processing was suspended for paper tax
         returns with a FTHC for Calendar Year 2009 home purchases. As of June 5, 2009, the
         IRS had processed 44,416 paper returns with the new Special Processing Code.
The revisions to the IRS’ computer programs allow taxpayers to receive the increased FTHC in
accordance with the ARRA legislation. Before March 5, 2009, taxpayers who claimed more
than $7,500 in the FTHC for a Calendar Year 2009 purchase would not have received the
additional credit to which they may have been entitled. These taxpayers still have the
opportunity to file an amended tax return to claim up to $500 to which they may be entitled. In
addition, the IRS revised Form 5405 to incorporate the ARRA changes. Specifically:
     •   In Part I – the end date for claiming the credit was changed from “before July 1, 2009” to
         “before December 1, 2009.”
     •   In Part II, line 1 – the maximum amount of credit, $8,000 for Calendar Year 2009
         purchases, was added.
In the General Instructions—under Who Cannot Claim the Credit—the IRS added that a rule
denying the FTHC to taxpayers who are eligible for the District of Columbia first-time
homebuyer credit does not apply if the home is purchased in Calendar Year 2009. 15 Under the
Repayment of Credit Section, an entire section for homes purchased in Calendar Year 2009 was
added to explain the different repayment criteria.

Action by the IRS is needed to ensure the reliability of codes for identifying
purchase dates for the FTHC
The IRS established the Special Processing Code “H” to distinguish FTHC claims for homes
purchased in Calendar Year 2009 from homes purchased in Calendar Year 2008 because of the
different rules regarding the repayment of the FTHC. Tax returns should be processed with this
Special Processing Code when the FTHC claim shows the home was purchased in Calendar
Year 2009. In limited testing of tax returns with the FTHC, we found that the code was not
always recorded accurately. As of May 29, 2009, we identified 47,276 tax returns of taxpayers
who appear to have not claimed the full amount of the FTHC to which they may have been

15
   Pre-ARRA law did not allow the FTHC to taxpayers who were ever eligible for or had ever claimed the District of
Columbia first-time homebuyer credit in any year. The ARRA legislation eliminated this provision and added, for
2009 purchases, that if a taxpayer is eligible to claim the FTHC, they cannot also claim the District of Columbia
first-time homebuyer credit.
                                                                                                        Page 11
                      The 2009 Filing Season Was Successful Despite Significant
                     Challenges Presented by the Passage of New Tax Legislation



         will be used in determining if recapture is required, our review of 47,276 e-filed returns
         found that 93 percent (43,967) did not have their accounts properly coded. We recently
         initiated an audit that will evaluate the effectiveness of IRS efforts to distinguish between
         filers claiming the credit for a purchase in Calendar Year 2008 versus those claiming the
         credit for a purchase in Calendar Year 2009.

Taxpayers Make Limited Use of the Split Refund Option
Beginning in the 2007 Filing Season, individual taxpayers could file a Direct Deposit of Refund
(Form 8888) to have their refunds split and electronically deposited into accounts at up to three
different United States financial institutions, including banks, brokerage firms, or credit unions.
The accounts can be checking, savings, or Individual Retirement Arrangements.
While the number of tax returns through May 29, 2009, on which taxpayers chose to split their
refunds was 68 percent higher than last year (379,717 compared to 225,364), split refunds still
represent less than 1 percent of all direct deposits. The 379,717 split refunds totaled nearly
$1.6 billion, for an average of $2,050 per refund. Only $207 million of the $1.6 billion in
refunds was designated for deposit to savings accounts.

The Internal Revenue Service Corrected or Is in the Process of
Correcting Issues Identified in Prior Filing Season Reviews
We determined the IRS has addressed issues we reported during the 2008 Filing Season 16 or is in
the process of correcting the issues. These include ensuring individuals are not improperly
claiming:
     •   Qualified Mortgage Insurance Premiums (QMIP) Deduction – In last year’s filing season
         report, we identified 4,988 tax returns on which taxpayers were improperly allowed a
         Qualified Mortgage Insurance Premiums deduction when the taxpayers’ AGI exceeded
         the maximum limit.
         The IRS requested computer programming to limit the Qualified Mortgage Insurance
         Premiums deduction when the AGI limits are exceeded. Programming for the
         2009 Filing Season rejected e-filed tax returns when the limits were exceeded. As of
         May 29, 2009, we identified 9,046 tax returns 17 that were allowed a Qualified Mortgage
         Insurance Premiums deduction when the taxpayer’s AGI exceeded the maximum limit.
         During the 2010 Filing Season, paper tax returns will be forwarded to the Error


16
   The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and Unexpected Tax
Legislation (Reference Number 2008-40-183, dated September 30, 2008).
17
   The returns included 9,037 paper tax returns and 9 e-filed tax returns. Some e-filed tax returns were not rejected
because the AGI did not exceed the maximum limit when received but were changed during error processing.
                                                                                                             Page 13
               The 2009 Filing Season Was Successful Despite Significant
              Challenges Presented by the Passage of New Tax Legislation



    Resolution System for correction. The IRS is in the process of finalizing the
    programming request.
•   Dual Benefits of the Tuition and Fees Deduction and the Education Credit – Through
    2009, a taxpayer may deduct up to $4,000 for qualified tuition and fees expenses. A
    taxpayer may also claim an Education Credit for qualified education expenses. However,
    taxpayers may not receive a dual benefit by taking both the tuition and fees deduction and
    the Education Credit for the same student in the same year. If the Education Credit is
    elected, the tuition and fees deduction is not allowed.
    This issue was reported for six filing seasons and corrective actions were implemented in
    response to our 2007 Filing Season report. Improved forms and instructions to the
    taxpayer have considerably decreased the number of taxpayers claiming a dual benefit.
    In addition, current programming and Internal Revenue Manual procedures considerably
    reduced the allowance of these erroneous claims. To assist in reducing the residual
    employee errors, procedures were implemented in August 2008 to instruct employees to
    review tax returns claiming both the credit and the deduction for the dual benefit
    conditions. As of May 29, 2009, we identified 3,016 returns claiming both the tuition
    and fees deduction and the Education Credit for the same student, a 23 percent decrease
    from the same time last year.




                                                                                      Page 14
                      The 2009 Filing Season Was Successful Despite Significant
                     Challenges Presented by the Passage of New Tax Legislation



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the IRS timely and accurately
processed individual paper and e-filed tax returns 1 during the 2009 Filing Season. The audit
focused on implementation of new tax law changes and administrative changes that affected Tax
Year 2008 tax returns. In addition, we reviewed certain corrective actions taken for the
conditions identified in our review of the 2008 Filing Season 2 to determine whether they were
adequate. To accomplish our objective, we:
I.       Identified new tax legislation and administrative changes for the 2009 Filing Season that
         will have the greatest potential effect on individual taxpayers.
         A. Reviewed tax forms, instructions, and publications to determine whether they were
            accurately updated with the changes.
         B. Identified tax legislation that was pending before Congress and determined what
            preparations were made by the IRS and the potential effect on taxpayers if the
            legislation was passed.
II.      Determined whether the IRS correctly implemented new tax legislation and
         administrative changes that affected the processing of individual tax returns during the
         2009 Filing Season.
         A. Used computer analysis of 100 percent of the Tax Year 2008 individual income tax
            returns processed nationally on the Individual Return Transaction File between
            January 1 and May 29, 2009, 3 to identify returns affected by recent tax legislation and
            administrative changes. We used random sampling for some tests to ensure that each
            return had an equal chance of being selected. We also used judgmental sampling if
            we needed to ensure that the original returns could be quickly obtained to evaluate the
            accuracy of processing. We determined whether changes to tax products were
            correctly implemented in return processing systems at the Submission Processing
            sites by assessing the accuracy of returns processed with the following changes.

1
  See Appendix V for a glossary of terms.
2
  The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and Unexpected Tax Legislation
(Reference Number 2008-40-183, dated September 30, 2008).
3
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information
Technology validated the data that were extracted, and we verified the data with appropriate documentation.
Judgmental samples were selected and reviewed to ensure that the amounts presented were supported by external
sources. As appropriate, data in the selected data records were compared to the physical tax returns to verify that the
amounts were supported.
                                                                                                             Page 15
          The 2009 Filing Season Was Successful Despite Significant
         Challenges Presented by the Passage of New Tax Legislation



   1. Electronically identified 1,129,480 returns processed with the First-Time
      Homebuyer Credit (Form 5405) through June 5, 2009, and analyzed 58,741
      early filed returns to determine whether certain programming was in place.
   2. Electronically identified and evaluated returns claiming an additional standard
      deduction on line 39c of the U.S. Individual Income Tax Return (Form 1040) and
      selected a judgmental sample of 30 returns from 32,184 early filed returns to
      determine if they were accurately processed.
   3. Electronically identified and evaluated returns with earned income of $8,500 or
      less to determine if the taxpayer qualified for the Additional Child Tax Credit and
      selected a random sample of 30 returns from 2,914 early filed returns to determine
      if the IRS properly processed the returns and allowed the correct amount of
      Additional Child Tax Credit.
   4. Electronically identified and evaluated 2,334 individual tax returns processed
      through April 4, 2009, with an exemption amount for Taxpayers Housing
      Midwestern Displaced Individuals (Form 8914). We selected a random sample of
      30 of these returns to review for processing accuracy.
   5. Electronically identified and evaluated returns processed with an Education
      Credit, Student Loan Interest deduction, or Hope Credit to verify the deduction or
      credit was properly limited. We reviewed random samples of 30 returns from
      26,491 with a Student Loan Interest deduction; 22 returns from 102,227 with
      Education Credits; and 8 returns from 2,717 returns claiming Hope Credits.
   6. Electronically identified 4.2 million individual tax returns processed through
      March 20, 2009, with a Retirement Savings Contributions Credit and determined
      if the credit was properly disallowed if the AGI limits were exceeded.
   7. Electronically identified and evaluated returns where the taxpayer claimed an
      amount that exceeded the maximum Earned Income Credit based on filing status,
      number of qualifying children, and AGI limits. We selected a judgmental sample
      of 45 returns from 32,184 processed through February 20, 2009, to verify whether
      the returns were accurately processed.
   8. Electronically identified and selected a judgmental sample of 45 returns from
      32,184 early filed returns to verify the correct standard deduction and exemption
      amounts were used. We also electronically analyzed returns processed through
      May 2009 to verify that itemized deductions were properly adjusted when AGIs
      exceeded the amount at which the deductions should be limited.
B. Determined the numbers of taxpayers affected by the new tax legislation and
   administrative changes identified in Step I. by counting the numbers of returns and
   dollar amounts of the applicable deductions or credits claimed by taxpayers.

                                                                                 Page 16
                 The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation



III.   Determined whether the IRS monitoring systems indicated that individual returns were
       being processed accurately and in a timely manner.
       A. Monitored various Submission Processing site production reports, inventory reports,
          and return error inventories between January 23 and May 29, 2009, for key indicators
          of return processing and compared the statistics to those for the 2008 Filing Season.
       B. Monitored the IRS Program Completion Date reports from April 28 through
          May 14, 2009, to determine whether the Submission Processing sites processed all
          refund returns in a timely manner.
       C. Monitored Error Resolution System inventories (for delays or capacity problems) and
          the transshipment of returns between Submission Processing sites.
       D. Monitored weekly 2009 Filing Season Wage and Investment Division Production
          meetings between January 22 and May 28, 2009, and monitored the IRS Submission
          Processing function web site, to identify potentially significant issues.
IV.    Determined whether the IRS had corrected problems identified in the 2008 Filing Season.
       From returns processed by the Submission Processing sites between January 1 and
       May 29, 2009, we electronically identified Tax Year 2008 returns that met specific
       criteria.
       A. Identified 9,046 returns through May 29, 2009, incorrectly processed with a Qualified
          Mortgage Insurance Premiums deduction on line 13 of Itemized Deductions
          (Schedule A) Form 1040 for taxpayers with AGIs in excess of the allowable limit.
       B. Identified through May 29, 2009, 3,016 returns with the dual benefit condition where
          the IRS allowed the Education Credit and the tuition and fees deduction for the same
          student. We identified and reviewed new procedures regarding the processing of
          Education Credit and tuition and fees deduction returns. We ensured that employees
          have been alerted to the new procedures.
       C. Identified volumes of returns received through May 29, 2009, with split refunds by
          analyzing weekly extracts of the Individual Return Transaction File.




                                                                                       Page 17
                 The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Lawrence White, Lead Auditor
Sharon Buford, Senior Auditor
John Hawkins, Senior Auditor
Bonnie Shanks, Senior Auditor
Steven Vandigriff, Senior Auditor
Kim McMenamin, Program Analyst
Joseph Butler, Information Technology Specialist
Robert Carpenter, Information Technology Specialist
Michele Cove, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                    Page 18
                 The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 19
                         The 2009 Filing Season Was Successful Despite Significant
                        Challenges Presented by the Passage of New Tax Legislation



                                                                                                        Appendix IV

             Tax Products Not Timely Available/Updated

                                                                           Date
                                                                                              Date of
               Tax                                                        Posted 1                        Updated and
                                                Issue                                         TIGTA
             Product                                                      Prior to                          Posted
                                                                                               Alert
                                                                        TIGTA Alert

    Tax Guide for                  Posted, but not with new                Before
    Seniors (Publication           Midwestern Disaster                     1/22/09            1/23/09       2/12/09
    554)                           information
    Charitable                     Not posted with new                      none              1/23/09       1/27/09
    Contributions                  Midwestern Disaster
    (Publication 526)              information
    Individual                     Not posted with new                      none              1/23/09       2/5/09
    Retirement                     Midwestern Disaster
    Arrangements (IRAs)            information
    (Publication 590)
    Application for                Not posted with new                      none              1/23/09       3/16/09
    Tentative Refund               Midwestern Disaster
    (Form 1045) and                information
    related Instructions
    Selling Your Home              Not posted with new                      none              2/12/09       2/14/09
    (Publication 523)              FTHC information
    Net Operating                  Not posted with                          none              2/12/09       3/24/09
    Losses (NOLs) for              Midwestern Disaster
    Individuals, Estates,          information
    and Trusts
    (Publication 536)




1
    The term “posted” refers to the availability of a tax product to the public on IRS.gov.



                                                                                                               Page 20
                  The 2009 Filing Season Was Successful Despite Significant
                 Challenges Presented by the Passage of New Tax Legislation




                                                        Date
                                                                   Date of
         Tax                                           Posted 1              Updated and
                                  Issue                            TIGTA
       Product                                         Prior to                Posted
                                                                    Alert
                                                     TIGTA Alert

U.S. Tax Guide for     Not posted with information
Aliens (Publication    on changes to:
519)
                        Phase-outs for personal
                                                        none       2/12/09     4/19/09
                         exemptions and itemized
                         deductions
                        IRA contributions
                        Capital Gains/Qualified
                         Dividend Rate




                                                                                  Page 21
             The 2009 Filing Season Was Successful Despite Significant
            Challenges Presented by the Passage of New Tax Legislation



                                                                            Appendix V

                         Glossary of Terms

       Term                                       Definition
Adjusted Gross         Calculated after certain adjustments are made but before
Income                 standard or itemized deductions and personal exemptions are
                       subtracted.
American Recovery      Legislation making supplemental appropriations for job
and Reinvestment Act   preservation and creation, infrastructure investment, energy
of 2009                efficiency and science, assistance to the unemployed, and State
                       and local fiscal stabilization for the fiscal year ending
                       September 30, 2009, and for other purposes. Became Public
                       Law 111-005 on February 17, 2009.
Economic Stimulus      Legislation to provide economic stimulus through recovery
Act of 2008            rebates to individuals, incentives for business investment, and an
                       increase in conforming and Federal Housing Authority loan
                       limits. Became Public Law 110-185 on February 13, 2008.
Economic Stimulus      The Economic Stimulus Act of 2008 directed the Department of
Payment                the Treasury to send to eligible taxpayers advance payments of
                       the 2008 Recovery Rebate Credit. The IRS calculated economic
                       stimulus payments based upon information from taxpayers’
                       2007 Federal tax returns and issued checks or direct deposits to
                       taxpayers over several weeks starting in May 2008.
Emergency Economic     Legislation providing authority for the Federal Government to
Stabilization Act of   purchase and insure certain types of troubled assets for the
2008                   purposes of providing stability to and preventing disruption in
                       the economy and financial system and protecting taxpayers, to
                       amend the Internal Revenue Code of 1986 to provide incentives
                       for energy production and conservation, to extend certain
                       expiring provisions, to provide individual income tax relief, and
                       for other purposes. Became Public Law 110-343 on
                       October 3, 2008.




                                                                                    Page 22
                 The 2009 Filing Season Was Successful Despite Significant
                Challenges Presented by the Passage of New Tax Legislation




        Term                                        Definition
Error Resolution        Provides for the correction of errors associated with input
System                  submissions. The error inventory is managed on an Error
                        Resolution System database, and corrected documents are
                        validated by Generalized Mainline Framework modules.
Filing Season           The period from January 1 through April 15 when most
                        individual income tax returns are filed.
First-Time              A credit available to taxpayers who bought a main home in the
Homebuyer Credit        United States after April 8, 2008, and did not own any other
                        main home during the 3-year period ending on the date that the
                        home was bought.
Free File Program       A free Federal tax preparation and e-filing program for eligible
                        taxpayers developed through a partnership between the IRS and
                        the Free File Alliance LLC. The Alliance is a group of
                        private-sector tax software companies.
Generalized Mainline    Validates and perfects data from a variety of input sources
Framework               (e.g., tax returns, remittances, information returns, and
                        adjustments). Updated transactions are controlled, validated,
                        and corrected.
Housing and             Legislation providing needed housing reform and for other
Economic Recovery       purposes. Became Public Law 110-289 on July 30, 2008.
Act of 2008
Individual Paper and    U.S. Individual Income Tax Returns (Forms 1040 and 1040A)
Electronic Returns      and Income Tax Return for Single and Joint Filers With No
                        Dependents (Form 1040EZ).
Individual Return       Contains data transcribed from initial input of the original
Transaction File        individual tax returns during return processing.
Integrated Data         Automation tool that provides processes to IRS employees to
Retrieval System        simplify research, reduce keystrokes, and increase the accuracy
Decision Assisting      of regular work processes.
Program




                                                                                       Page 23
               The 2009 Filing Season Was Successful Despite Significant
              Challenges Presented by the Passage of New Tax Legislation




        Term                                        Definition
Master File             The IRS database that stores various types of taxpayer account
                        information. This database includes individual, business, and
                        employee plans and exempt organizations data.
Modified Adjusted       Calculated without regard to certain deductions or exclusions,
Gross Income            unlike AGI.
Phase-out Limitations   The maximum allowable amount for certain credits and
                        deductions is decreased once the AGI of the taxpayer reaches a
                        specified level. The allowable amount is progressively reduced
                        to zero depending upon the AGI.
Program Completion      The date determined by the IRS for the completion of any
Date                    program. Completion dates are set for processable returns
                        received by specific dates, including timely, prior period, and
                        delinquent returns.
Qualified Mortgage      An itemized deduction allowable for mortgage insurance
Insurance Premiums      provided by the Department of Veterans Affairs, the Federal
Deduction               Housing Administration, the Rural Housing Service, or private
                        mortgage insurance issued in 2007 or later for debt secured by a
                        first or second home.
Recovery Rebate         A one-time benefit for people who did not receive the full
Credit                  economic stimulus payment in Calendar Year 2008 and whose
                        circumstances may have changed, making them eligible for some
                        or all of the unpaid portion.
Special Processing      Code used to identify special conditions or computations for IRS
Code                    computer processing systems to actuate or suppress actions.
                        Used by the Service Center computer, the code does not post to
                        the Master File.
Submission              Process paper and electronic submissions, correct errors,
Processing Sites        and forward data to the Computing Centers for analysis and
                        posting to taxpayer accounts. These sites are located in
                        Fresno, California; Atlanta, Georgia; Andover, Massachusetts;
                        Kansas City, Missouri; and Austin, Texas.




                                                                                     Page 24
     The 2009 Filing Season Was Successful Despite Significant
    Challenges Presented by the Passage of New Tax Legislation



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 25
 The 2009 Filing Season Was Successful Despite Significant
Challenges Presented by the Passage of New Tax Legislation




                                                      Page 26
 The 2009 Filing Season Was Successful Despite Significant
Challenges Presented by the Passage of New Tax Legislation




                                                      Page 27
